GR-50-99-002
U. S. DEPARTMENT OF JUSTICE
 
Audit Report
 
STOP Violence Against Indian Women Discretionary Grant
Administered by the
Lac Courte Oreilles Tribal Government
Hayward, Wisconsin
Grant Number 96-WI-NX-0035
Audit Report Number GR-50-99-002
 
November 30, 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the STOP
Violence Against Indian Women Discretionary Grant awarded by the Office of Justice
Programs (OJP), U.S. Department of Justice, to the Lac Courte Oreilles Tribal
Government (LCO) located in Hayward, Wisconsin. According to the OJP award documents, LCO
was originally awarded $84,000 for the period September 30, 1996 through
September 29, 1997. This grant was later supplemented by a $100,000 award for the
period October 1, 1998 through September 30, 1999. The purpose of the grant was to
assist the Indian tribal government in developing and strengthening effective law
enforcement and prosecution strategies to combat violence against Indian women.
In brief, our audit revealed:


Expenditure overcharges totalling $7,694;


Unsupported matching contributions totalling $19,653;


Failure to submit accurate and timely grant reports.

The details of our audit are contained in the Findings and Recommendations section of
this report. Our audit scope and methodology are described in Appendix I.
#####